U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

James Ayers v. United States of America,
S.Ct. No. 20-7855

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19,
2021, and placed on the docket on April 27, 2021. The government’s response is due on May
27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7855
AYERS, JAMES
USA

MICHAEL L. WEINMAN
WEINMAN ASSOCIATES
101 N. HIGHLAND AVE.
P0 B0X 266
JACKSON, TN 39302
731-423-5565

